                                              EMPLOYMENT STANDARDS
                                              ADMINISTRATION

Office of Inspector General—Office of Audit




                                              LONGSHORE AND HARBOR WORKERS’
                                              COMPENSATION ACT SPECIAL FUND
                                              FINANCIAL STATEMENTS AND
                                              INDEPENDENT AUDITORS’ REPORT
                                              September 30, 2007 and 2006




                                               This report was prepared by KPMG, LLP, under contract to the U.S.
                                               Department of Labor, Office of Inspector General, and by acceptance, it
                                               becomes a report of the Office of Inspector General.




                                                                                      Assistant Inspector General for Audit




                                                                                  Date Issued: March 31, 2008
                                                                                  Report Number: 22-08-004-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report



                         LONGSHORE AND HARBOR WORKERS’
                          COMPENSATION ACT SPECIAL FUND


                                      Table of Contents



                                                                                          Page
ACRONYMS                                                                                     iii
Management’s Discussion and Analysis
    Mission and Organizational Structure                                                     1
    Financial Highlights                                                                     1
    Performance Goals and Results                                                            2
    Internal Controls and Systems                                                            3
    Known Risks and Uncertainties                                                            4
    Limitations of the Financial Statements                                                  4
Independent Auditors’ Report                                                                 7
FINANCIAL STATEMENTS
    Balance Sheets                                                                          15
    Statements of Net Cost                                                                  16
    Statements of Changes in Net Position                                                   17
    Statements of Budgetary Resources                                                       18

NOTES TO THE FINANCIAL STATEMENTS
    Note 1 – Summary of Significant Accounting Policies                                     19
    Note 2 – Funds with U.S. Treasury                                                       22
    Note 3 – Investments                                                                    22
    Note 4 – Accounts Receivable, Net                                                       23
    Note 5 – Other Liabilities                                                              24
    Note 6 – Due to OWCP                                                                    25
    Note 7 – Status of Budgetary Resources                                                  25
    Note 8 – Reconciliation of Budgetary Resources Obligated
             to Net Cost of Operations                                                      26
    Note 9 – Concentration of Risk                                                          26




i                                             U.S. Department of Labor—Office of Inspector General
                                                                   Report Number: 22-08-004-04-432
                                      Longshore and Harbor Workers’ Compensation Act Special Fund
                                              Financial Statements and Independent Auditors’ Report




                    THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




U.S. Department of Labor—Office of Inspector General                                             ii
Report Number: 22-08-004-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report



                         LONGSHORE AND HARBOR WORKERS’
                          COMPENSATION ACT SPECIAL FUND


                                          Acronyms



AUP          Agreed Upon Procedures
DLHWC        Division of Longshore and Harbor Workers’ Compensation
DOL          Department of Labor
ESA          Employment Standards Administration
FY           Fiscal Year
LHWCA        Longshore and Harbor Workers’ Compensation Act
OMB          Office of Management and Budget
OWCP         Office of Workers’ Compensation Programs
U.S.C.       United States Code




iii                                          U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-08-004-04-432
                                     Longshore and Harbor Workers’ Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report




                   THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




U.S. Department of Labor—Office of Inspector General                                            iv
Report Number: 22-08-004-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                       LONGSHORE AND HARBOR WORKERS’
                        COMPENSATION ACT SPECIAL FUND
                         Management’s Discussion and Analysis
                             September 30, 2007 and 2006


Mission and Organizational Structure

The Longshore and Harbor Workers’ Compensation Act (LHWCA) provides medical
benefits, compensation for lost-wages and rehabilitation services for job-related injuries,
diseases or death of private-sector workers in certain maritime and related employment.
Generally, benefits are paid directly from private funds by an authorized self-insured
employer or through an authorized insurance carrier. Cases meeting the requirements of
the Longshore and Harbor Workers’ Compensation statute are paid from the Fund
comprised primarily of employer contributions (assessments) and administered by the
DLHWC. In fiscal year 2007 and 2006, 4,728 and 4,888 injured workers and dependents
received compensation benefits from the Fund.

The reporting entity is the Longshore and Harbor Workers’ Compensation Act Special
Fund (Fund). Organizationally the Fund is administered by the Employment Standards
Administration (ESA), an agency within the United States Department of Labor. Within
ESA, the Division of Longshore and Harbor Workers’ Compensation (DLHWC) has direct
responsibility for administration of the Fund. The Fund supports the program mission by
providing compensation, and in certain cases, medical care payments to employees
disabled from injuries which occurred on the navigable waters of the United States, or in
adjoining areas used for loading, unloading, repairing, or building a vessel. The Fund
also extends benefits to dependents if any injury resulted in the employee’s death.

Additionally, the Longshore and Harbor Workers’ Compensation Act Section 10(h)
provides annual wage increase compensation (cost of living adjustments). Fifty percent
of this annual wage increase for pre-1972 compensation cases is paid by Federal
appropriated funds, and fifty percent is paid by the Fund through the annual assessment.
Appropriated funding for 10(h) is not reflected in the accompanying financial statements.
Appropriated funding is reflected in the Federal Employees Compensation Act’s Special
Benefit Fund.

Administrative services for operating the Fund are provided by the ESA through direct
Federal Appropriations. Appropriated funding for administrative services is not reflected
in the accompanying statements.

Financial Highlights

The majority of the revenue of the Fund is generated through annual recurring
assessments paid by self-insured employers and insurance carriers and totaled

1                                       U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-08-004-04-432
                                Longshore and Harbor Workers’ Compensation Act Special Fund
                                        Financial Statements and Independent Auditors’ Report

                        LONGSHORE AND HARBOR WORKERS’
                         COMPENSATION ACT SPECIAL FUND
                          Management’s Discussion and Analysis
                               September 30, 2007 and 2006


$128,933,734 in fiscal year 2007. This compares with assessment revenue of
$138,856,619 for fiscal year 2006. During fiscal year 2007 and 2006, substantial
recoveries were made for the Fund due to activities involving the application of Agreed
Upon Procedures (AUP) on Forms LS-513, Report of Payments (used in the calculation
of the annual assessment), and negotiation/collection of past due assessments. Equally
important, the AUP activities have uncovered common industry reporting errors and other
industry record-keeping mistakes which, when discovered, have been eliminated. The
on-going AUP program recovered $2,133,496 in fiscal year 2007 and $6,545,834 in fiscal
year 2006 for the Fund. These recoveries have and will continue to reduce carrier
assessments and are reflected in the Assessments line on the Statement of Changes in
Net Position.

Investment income for the Fund was $2,077,374 for fiscal year 2007 compared to
$2,016,112 for fiscal year 2006. The average interest rate earned during fiscal year 2007
was 5.12% compared to 4.61% for fiscal year 2006. The Fund’s costs remained relatively
stable compared to fiscal year 2006; $129,041,381 for fiscal year 2007 compared to
$133,693,455 for fiscal year 2006.

The sources of payments into the Fund include: fines and penalties levied under the Act;
payments by employers of $5,000 for each death case where there is no survivor entitled
to the benefits; interest payments on Fund investments; and, by far the largest source,
payment of annual assessments by self-insured employers and insurance carriers.

Proceeds of the Special Fund are used for payments under: section 8(f) for second
injury claims; section 10(h) for initial and subsequent annual adjustments in
compensation for permanent total disability or related death from injuries which occurred
prior to the effective date of the 1972 LHWCA amendments; sections 39(c) and 8(g) for
the procurement of medical and vocational rehabilitation services for permanently
disabled employees and to provide a maintenance allowance to workers undergoing
rehabilitation; section 18(b) for compensation to injured workers in cases of employer
default; and section 7(e) for the cost of certain medical examinations.

Performance Goals and Results

The DLHWC supports the Department of Labor’s Strategic Goal 4 – Strengthened
Economic Protections. This goal broadly promotes the economic security of workers and
families. In particular, the DLHWC program supports Performance Goal 4B – Reduce the
Consequences of Work-Related Injuries. The Department of Labor plays a large role in

U.S. Department of Labor—Office of Inspector General                                       2
Report Number: 22-08-004-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                        LONGSHORE AND HARBOR WORKERS’
                         COMPENSATION ACT SPECIAL FUND
                          Management’s Discussion and Analysis
                               September 30, 2007 and 2006



ensuring that worker benefits are protected and that employers administer benefit
programs in an appropriate way. The Longshore program assists in meeting this
outcome goal by establishing the long term performance goal of reducing by 3% in three
years over the fiscal year 2005 baseline of 253 days the average time required to resolve
disputed issues in Longshore and Harbor Workers’ Compensation Program contested
cases. The objective of this indicator is to quickly resolve disputes, enabling earlier
benefit delivery and reducing litigation costs. The fiscal year 2007 goal was: 248 days.

This target was achieved, with the program result of 230 days as the average number of
days to resolve disputed issues, a 7.3% improvement over the target of 248 days.

Longshore management has focused on improving mediation skills and timeliness of
district office intervention when disputes arose, with added emphasis on the accuracy of
dispute tracking data. In FY 2008, these efforts will continue. The FY 2008 target will be
245 days.

Internal Controls and Systems

The Longshore and Harbor Workers’ Compensation Division’s Branch of Financial
Management and Insurance is a very small unit comprised of six employees and one
supervisor, all working in very close proximity to each other. Unethical behavior is
guarded against by carefully segregated duties, carefully assigned roles which are
password protected, and by close supervision. Much of the oversight, evaluation,
monitoring, and control and almost all of the supervisory activity is informal, done on a
face-to-face basis. Similarly, each of the district offices is in itself a small unit, operating
in the same fashion as the Branch of Financial Management and Insurance.

Management communicates all procedural, policy, and operating goals to staff by means
of weekly staff meetings, a written procedure manual, frequent e-mail communication,
and frequent individual communications regarding changes, problems and issues.

Statutes provide the formal standards where these are applicable, such as privacy
statutes, cash handling procedures and conflict of interest regulations. All codes,
statutes, and regulations governing the conduct of Federal employees apply to all
Longshore Division employees.

Cases paid by the Special Fund are paid as a result of a formal Compensation Order

3                                           U.S. Department of Labor—Office of Inspector General
                                                                Report Number: 22-08-004-04-432
                                Longshore and Harbor Workers’ Compensation Act Special Fund
                                        Financial Statements and Independent Auditors’ Report

                        LONGSHORE AND HARBOR WORKERS’
                         COMPENSATION ACT SPECIAL FUND
                          Management’s Discussion and Analysis
                               September 30, 2007 and 2006


issued by a District Director or Administrative Law Judge, setting forth precisely what
payment is due and to whom the payment is due. Each new case coming in for Special
Fund payment is prepared and reviewed by a total of five different employees before
payment is made, thus ensuring accuracy.

Monthly cash basis statements, monthly case management reports, quarterly review
processes, biweekly payment summaries, the SF-224 report and statement of
differences all provide current, reliable, and accurate information.

Known Risks and Uncertainties

The Longshore Special Fund is the single largest payer of indemnity payments under the
Longshore Act. It pays more than double the next largest payer of benefits. Although
there are nearly 600 authorized insurance carriers and self-insured employers, benefit
payments are concentrated among a relatively few. For example, the top 10 carriers and
self-insurers alone pay almost one-half of total industry payments excluding Special Fund
payments. If a major carrier or self-insurer fails, the remainder would face substantially
increased assessments.

The Special Fund is assessed one year at a time for current expenses. There are no
reserve funds for future Special Fund obligations. A series a high value single payment
claims, for example a large number of hearing loss claims resolved in the private sector,
could exceed the predictions used to quantify the assessment. A single, very large claim
from an uninsured, bankrupt employer could have the same effect. Temporary collection
issues could result, necessitating special, unscheduled assessments or other actions to
keep the Special Fund funded for current liabilities.

There are currently no known examples of these risks and uncertainties.

Limitations of the Financial Statements

The following limitations are part of the financial statements:

•   The financial statements have been prepared to report the financial position and
    results of operations of the entity, pursuant to the requirements of the Chief Financial
    Officers Act of 1990, U.S.C. 3515 (b).



U.S. Department of Labor—Office of Inspector General                                       4
Report Number: 22-08-004-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                        LONGSHORE AND HARBOR WORKERS’
                         COMPENSATION ACT SPECIAL FUND
                          Management’s Discussion and Analysis
                               September 30, 2007 and 2006



•   While the statements have been prepared from the books and records of the Fund in
    accordance with the formats prescribed by OMB, the statements are different from the
    financial reports used to monitor and control budgetary resources which are prepared
    from the same books and records.
•   The statements should be read with the realization that they are for a component of
    the U.S. Government, a sovereign entity, that liabilities cannot be liquidated without
    the enactment of an appropriation, and that the payment of all liabilities other than for
    contracts can be abrogated by the sovereign entity.




5                                          U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-08-004-04-432
                                Longshore and Harbor Workers’ Compensation Act Special Fund
                                        Financial Statements and Independent Auditors’ Report




                 THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




U.S. Department of Labor—Office of Inspector General                                       6
Report Number: 22-08-004-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report



                          KPMG LLP
                          2001 M Street, NW
                          Washington, DC 20036



                          Independent Auditors’ Report


Ms. Victoria Lipnic, Assistant Secretary
Employment Standards Administration
U.S. Department of Labor

We have audited the accompanying balance sheets of the U.S. Department of
Labor’s (DOL) Longshore and Harbor Workers’ Compensation Act Special Fund
(the Fund) as of September 30, 2007 and 2006, and the related statements of
net cost, changes in net position, and budgetary resources (hereinafter referred
to as “financial statements”) for the years then ended. The objective of our audits
was to express an opinion on the fair presentation of these financial statements.
In connection with our fiscal year 2007 audit, we also considered the Fund’s
internal controls over financial reporting and performance measures and tested
the Fund’s compliance with certain provisions of applicable laws and regulations
that could have a direct and material effect on these financial statements.


SUMMARY

As stated in our opinion on the financial statements, we concluded that the
Fund’s financial statements as of and for the years ended September 30, 2007
and 2006, are presented fairly, in all material respects, in conformity with U.S.
generally accepted accounting principles.

In fiscal year 2007, the Fund changed its method of reporting the reconciliation of
budgetary resources obligated to the net cost of operations, in accordance with
Office of Management and Budget (OMB) Circular No. A-136, Financial
Reporting Requirements.

Our consideration of internal control over financial reporting resulted in the
identification of significant deficiencies related to weaknesses in controls over
accounts receivable and financial reporting. However, we do not consider these
significant deficiencies to be material weaknesses.

We noted no deficiencies involving the design of the internal control over the
existence and completeness assertions related to key performance measures.

The results of our tests of compliance with certain provisions of laws and
regulations disclosed no instances of noncompliance or other matters that are


7                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 22-08-004-04-432
                          KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                          a member of KPMG International, a Swiss cooperative.
                        Longshore and Harbor Workers’ Compensation Act Special Fund
                                Financial Statements and Independent Auditors’ Report



required to be reported under Government Auditing Standards, issued by the
Comptroller General of the United States, and OMB Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements.

The following sections discuss our opinion on the Fund’s financial statements;
our consideration of the Fund’s internal controls over financial reporting and
performance measures; our tests of the Fund’s compliance with certain
provisions of applicable laws and regulations; and management’s and our
responsibilities.

OPINION ON THE FINANCIAL STATEMENTS

We have audited the accompanying balance sheets of the U.S. Department of
Labor’s Longshore and Harbor Workers’ Compensation Act Special Fund as of
September 30, 2007 and 2006, and the related statements of net cost, changes
in net position, and budgetary resources for the years then ended.

In our opinion, the financial statements referred to above present fairly, in all
material respects, the financial position of the U.S. Department of Labor’s
Longshore and Harbor Workers’ Compensation Act Special Fund as of
September 30, 2007 and 2006, and its net costs, changes in net position, and
budgetary resources for the years then ended, in conformity with U.S. generally
accepted accounting principles.

As discussed in Note 1(b) to the financial statements, the Fund changed its
method of reporting the reconciliation of budgetary resources obligated to the net
cost of operations in fiscal year 2007, based on new reporting requirements
under OMB Circular A-136.

The information in the Management’s Discussion and Analysis is not a required
part of the financial statements, but is supplementary information required by
U.S. generally accepted accounting principles and OMB Circular No. A-136. We
have applied certain limited procedures, which consisted principally of inquiries of
management regarding the methods of measurement and presentation of this
information. However, we did not audit this information and, accordingly, we
express no opinion on it.

INTERNAL CONTROL OVER FINANCIAL REPORTING

Our consideration of the internal control over financial reporting was for the
limited purpose described in the Responsibilities section of this report and would
not necessarily identify all deficiencies in the internal control over financial
reporting that might be significant deficiencies or material weaknesses.




U.S. Department of Labor—Office of Inspector General                               8
Report Number: 22-08-004-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report



A control deficiency exists when the design or operation of a control does not
allow management or employees, in the normal course of performing their
assigned functions, to prevent or detect misstatements on a timely basis. A
significant deficiency is a control deficiency, or combination of control
deficiencies, that adversely affects the Fund’s ability to initiate, authorize, record,
process, or report financial data reliably in accordance with U.S. generally
accepted accounting principles such that there is more than a remote likelihood
that a misstatement of the Fund’s financial statements that is more than
inconsequential will not be prevented or detected by the Fund’s internal control
over financial reporting. A material weakness is a significant deficiency, or
combination of significant deficiencies, that results in more than a remote
likelihood that a material misstatement of the financial statements will not be
prevented or detected by the Fund’s internal control.

In our fiscal year 2007 audit, we consider the deficiencies described in Exhibit I to
be significant deficiencies in internal control over financial reporting. However,
we believe that none of the significant deficiencies described in Exhibit I are
material weaknesses.

INTERNAL CONTROL OVER PERFORMANCE MEASURES

Our tests of internal control over performance measures, as described in the
Responsibilities section of this report, disclosed no deficiencies involving the
design of the internal control over the existence and completeness assertions
related to key performance measures.

COMPLIANCE AND OTHER MATTERS

The results of our tests of compliance described in the Responsibilities section of
this report disclosed no instances of noncompliance or other matters that are
required to be reported herein under Government Auditing Standards and OMB
Bulletin No. 07-04.

                                       * * * * *
RESPONSIBILITIES

Management’s Responsibilities.

Management is responsible for the financial statements, including:

•   Preparing the financial statements in conformity with U.S. generally accepted
    accounting principles;

•   Preparing the Management’s Discussion and Analysis (including the
    performance measures);

9                                 U.S. Department of Labor—Office of Inspector General
                                                      Report Number: 22-08-004-04-432
                          Longshore and Harbor Workers’ Compensation Act Special Fund
                                  Financial Statements and Independent Auditors’ Report



•   Establishing and maintaining effective internal control; and

•   Complying with laws and regulations applicable to the Fund.

In fulfilling this responsibility, management is required to make estimates and
judgments to assess the expected benefits and related costs of internal control
policies.

Auditors’ Responsibilities. Our responsibility is to express an opinion on the
fiscal year 2007 and 2006 financial statements of the Fund based on our audits.
We conducted our audits in accordance with auditing standards generally
accepted in the United States of America; the standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and OMB Bulletin No. 07-04. Those standards and
OMB Bulletin No. 07-04 require that we plan and perform the audits to obtain
reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial
reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the
effectiveness of the Fund’s internal control over financial reporting. Accordingly,
we express no such opinion.

An audit also includes:

•   Examining, on a test basis, evidence supporting the amounts and disclosures
    in the financial statements;

•   Assessing the accounting principles used and significant estimates made by
    management; and

•   Evaluating the overall financial statement presentation.

We believe that our audits provide a reasonable basis for our opinion.

In planning and performing our fiscal year 2007 audit, we considered the Fund’s
internal control over financial reporting by obtaining an understanding of the
Fund’s internal control, determining whether internal controls had been placed in
operation, assessing control risk, and performing tests of controls as a basis for
designing our auditing procedures for the purpose of expressing our opinion on
the financial statements. We limited our internal control testing to those controls
necessary to achieve the objectives described in Government Auditing Standards
and OMB Bulletin No. 07-04. We did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial
Integrity Act of 1982. The objective of our audit was not to express an opinion on
the effectiveness of the Fund’s internal control over financial reporting.

U.S. Department of Labor—Office of Inspector General                                10
Report Number: 22-08-004-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report




Accordingly, we do not express an opinion on the effectiveness of the Fund’s
internal control over financial reporting.

As required by OMB Bulletin No. 07-04 in our fiscal year 2007 audit, with respect
to internal control related to performance measures determined by management
to be key and reported in the Management’s Discussion and Analysis, we
obtained an understanding of the design of internal controls relating to the
existence and completeness assertions and determined whether these internal
controls had been placed in operation. We limited our testing to those controls
necessary to report deficiencies in the design of internal control over key
performance measures in accordance with OMB Bulletin 07-04. However, our
procedures were not designed to provide an opinion on internal control over
reported performance measures and, accordingly, we do not provide an opinion
thereon.

As part of obtaining reasonable assurance about whether the Fund’s fiscal year
2007 financial statements are free of material misstatement, we performed tests
of the Fund’s compliance with certain provisions of laws and regulations,
noncompliance with which could have a direct and material effect on the
determination of the financial statement amounts. We limited our tests of
compliance to the provisions described in the preceding sentence, and we did
not test compliance with all laws and regulations applicable to the Fund.
However, providing an opinion on compliance with laws and regulations was not
an objective of our audit and, accordingly, we do not express such an opinion.

The Fund’s response to the findings identified in our audit are presented in
Exhibit I. We did not audit the Fund’s response and, accordingly, we express no
opinion on it.

RESTRICTED USE

This report is intended solely for the information and use of the United States
Department of Labor’s management, Office of Inspector General, OMB, the U.S.
Government Accountability Office, and the U.S. Congress, and is not intended to
be and should not be used by anyone other than these specified parties.




March 28, 2008




11                              U.S. Department of Labor—Office of Inspector General
                                                    Report Number: 22-08-004-04-432
                        Longshore and Harbor Workers’ Compensation Act Special Fund
                                Financial Statements and Independent Auditors’ Report

                                                                           Exhibit I

Controls Over Accounts Receivable and the Financial Reporting Process
Need Improvement

During the FY 2007, we noted the following related to accounts receivable and
statements of net cost:

   Accounts receivable:

    −   Accounts receivable in the draft Longshore financial statements were
        understated by $121,341 as a result of three Longshore benefit
        overpayments being incorrectly reported as accounts receivable of the
        District of Columbia Workmen’s Compensation Act Special Fund (DCCA)
        instead of the Longshore Special Fund;
    −   For three out of 23 assessment billings tested, we noted that carriers
        submitted adjustments for $43,785, and these adjustments were not
        reflected in account receivable, which resulted in an overstatement of
        accounts receivable of $43,785 in the draft Longshore Special Fund
        financial statements;
    −   Unapplied credits amounting to $23,151 that should have been applied
        against the related outstanding receivable balances were not applied; and
    −   The Fund calculates the allowance for doubtful accounts receivable as
        25% of the outstanding accounts receivable balance; however,
        management could not provide support for the rate being used.

   Statements of net cost:
    In preparing the statements of net cost, management incorrectly classified
    expenses of $4,069,405 as rehabilitation services, section 39(c), instead of
    second injury compensation, section 8(f).

OMB Circular No. A-123, Management’s Responsibility for Internal Control,
states that “The agency head must establish controls that reasonably ensure that
obligations and costs are in compliance with applicable laws; funds, property,
and other assets are safeguarded against waste, loss, unauthorized use, or
misappropriation; and revenues and expenditures applicable to agency
operations are properly recorded and accounted for to permit the preparation of
accounts and reliable financial and statistical reports . . .”

Per GAO’s Standards of Internal Control in the Federal Government, “Internal
control should generally be designed to assure that ongoing monitoring occurs in
the course of normal operations. It is performed continually and is ingrained in
the agency’s operations. It includes regular management and supervisory


U.S. Department of Labor—Office of Inspector General                              12
Report Number: 22-08-004-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

activities, comparisons, reconciliations, and other actions people take in
performing their duties.”

These errors noted above were caused by a lack of a thorough management
review of: journal entries; periodic accounts receivable analysis; the computation
of the allowance for doubtful accounts; and the draft financial statements.

We recommend that the Fund:
  1. Establish formal policies and procedures for periodically reviewing and
      analyzing outstanding accounts receivables and requiring more formal
      communication regarding credit and corrections between the program and
      accounting offices;
  2. Establish and enforce more formal management review over journal
      entries, accounts receivable analysis, the allowance computation, and the
      draft financial statements; and
  3. Develop a methodology for estimating the allowance for doubtful accounts
      that is based upon a documented analysis of historical collection and
      write-off trends. This analysis should be updated annually to take into
      consideration actual results and changes in the industry.

Management’s Response:
     1. Management agrees with the recommendation.           Formal procedures
        establishing monthly review and analysis of outstanding receivables with
        formal communication of credit and corrections between the program and
        accounting offices will be implemented by June 30, 2008.
     2. Management agrees with the recommendation. ESA has in place a formal
        process of review for all journal entries as well as the preparation of the
        Financial Statements. ESA will ensure that this process is strictly adhered
        to and that a thorough review takes place and includes all necessary
        signatures or initials. Additionally, ESA has established a procedure
        whereby the allowance amount for this fiscal year is split between the
        Assessment and Other Accounts Receivable balance.                 The total
        allowance amount is recorded in the “Allowance for Loss on Accounts
        Receivable,” 1319 account, while the assessment portion is recorded in
        the “Contra Revenue for Appropriations Receipts Income,” 5439 account,
        and the Other Accounts Receivable portion is recorded in the “Operating
        Expense – Bad Debt,” 6104 account. This accounting will allow for the
        proper classification in the year end Financial Statements.
     3. Management       agrees with the recommendation. Methodology for
        estimating the allowance for doubtful debts, based on historical collection
        and write-off trends, with annual updates to take into consideration actual
        results and changes in the industry, will be developed during the fiscal
        year, and implemented by September 30, 2008.


13                               U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 22-08-004-04-432
                        Longshore and Harbor Workers’ Compensation Act Special Fund
                                Financial Statements and Independent Auditors’ Report

Auditors’ Response:

Based on management’s response, we consider these                 recommendations
resolved and open.




U.S. Department of Labor—Office of Inspector General                              14
Report Number: 22-08-004-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report




                           LONGSHORE AND HARBOR WORKERS’
                            COMPENSATION ACT SPECIAL FUND
                                         Balance Sheets
                                 September 30, 2007 and 2006


                           Assets                                    2007               2006
Intra-governmental assets:
   Funds with U.S. Treasury (note 2)                          $      153,564           154,036
   Investments (note 3)                                           69,979,000        73,146,000
   Accounts receivable (Note 4)                                       15,512            10,220
            Total intra-governmental assets                       70,148,076        73,310,256
Accounts receivable, net of allowance (note 4)                   3,802,861           2,431,102
           Total assets                                       $ 73,950,937          75,741,358
               Liabilities and Net Position
Liabilities:
  Due to OWCP (note 6)                                        $           —          2,027,520
  Accrued benefits payable                                         3,655,366         3,382,352
  Deferred revenue                                                31,292,449        31,229,252
  Other liabilities (note 5)                                       8,115,123         8,142,077
            Total liabilities                                     43,062,938        44,781,201
Net position:
  Cumulative results of operations                              30,887,999          30,960,157
            Total liabilities and net position                $ 73,950,937          75,741,358


See accompanying notes to financial statements.




15                                               U.S. Department of Labor—Office of Inspector General
                                                                     Report Number: 22-08-004-04-432
                                       Longshore and Harbor Workers’ Compensation Act Special Fund
                                               Financial Statements and Independent Auditors’ Report

                            LONGSHORE AND HARBOR WORKERS’
                             COMPENSATION ACT SPECIAL FUND
                                       Statements of Net Cost
                            Years ended September 30, 2007 and 2006


                                                                       2007                2006
Special fund net cost of operations:
  Second injury compensation, Section 8(f)                      $ 117,001,637         122,337,055
  Wage increase compensation, Section 10(h)                         1,796,225           1,810,952
  Compensation payment for self-insurer in default,
    Section 18(b)                                                   5,884,937           5,078,887
  Rehabilitation services, Section 39 (c)                           2,645,517           2,974,147
  Medical services, Section 7(e)                                           —                1,750
  Bankrupt self-insured employers                                   1,713,065           1,490,664
            Net cost of operations                              $ 129,041,381         133,693,455


See accompanying notes to financial statements.




U.S. Department of Labor—Office of Inspector General                                              16
Report Number: 22-08-004-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report



                          LONGSHORE AND HARBOR WORKERS’
                           COMPENSATION ACT SPECIAL FUND
                             Statements of Changes in Net Position
                          Years ended September 30, 2007 and 2006


                                                                  2007                 2006
Cumulative results of operations, beginning               $    30,960,157           25,808,401
Budgetary financing sources:
  Transfers in/out without reimbursement (note 6)               (2,041,885)          (2,027,520)
  Non-exchange revenues:
    Interest                                                    2,077,374            2,016,112
    Assessments                                               128,933,734          138,856,619
            Total non-exchange revenues                       131,011,108          140,872,731
Total financing sources                                       128,969,223          138,845,211
Net cost of operations                                      (129,041,381)         (133,693,455)
            Net position, end of period                   $   30,887,999            30,960,157


See accompanying notes to financial statements.




17                                            U.S. Department of Labor—Office of Inspector General
                                                                  Report Number: 22-08-004-04-432
                                       Longshore and Harbor Workers’ Compensation Act Special Fund
                                               Financial Statements and Independent Auditors’ Report

                            LONGSHORE AND HARBOR WORKERS’
                             COMPENSATION ACT SPECIAL FUND
                                Statements of Budgetary Resources
                            Years ended September 30, 2007 and 2006


                                                                      2007                2006
Budgetary resources:
  Unobligated balance, brought forward                       $     67,869,658          69,597,787
  Budget authority
    Appropriations received (assessments)                        130,467,193          134,729,917
    Spending authority from offsetting collections                    38,741                   —
  Temporary not available pursuant to Public Law                          —               (20,480)
           Total budgetary resources                         $   198,375,592          204,307,224
Status of Budgetary Resources:
  Obligations Incurred (Note 7)
     Direct                                                  $   131,918,901          136,437,566
  Unobligated balances - available:
     Apportioned
     Other available - exempt from apportionment                  66,456,691           67,869,658
            Total status of budgetary resources              $   198,375,592          204,307,224
Change in obligated balance:
  Obligated balance, net
    Unpaid obligations, brought forward, October 1           $      5,409,871           3,710,894
  Obligations Incurred, net                                       131,918,901         136,437,566
  Less: Gross Outlays                                            (133,673,406)       (134,738,589)
  Obligated balance, net, end of period
    Unpaid obligations                                       $      3,655,366           5,409,871
Outlays:
 Gross Outlays                                               $   133,673,406          134,738,589
 Less: Offsetting collections                                        (38,741)                  —
 Net outlays                                                 $   133,634,665          134,738,589


See accompanying notes to financial statements.




U.S. Department of Labor—Office of Inspector General                                             18
Report Number: 22-08-004-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                        LONGSHORE AND HARBOR WORKERS’
                         COMPENSATION ACT SPECIAL FUND
                             Notes to the Financial Statements
                        Years ended September 30, 2007 and 2006


(1)   Summary of Significant Accounting Policies
      The principal accounting policies which have been followed by the Fund in
      preparing the accompanying financial statements are set forth below.
      (a)   Reporting Entity
            These financial statements present the financial position, net cost of
            operations, changes in net position and budgetary resources of the Longshore
            and Harbor Workers’ Compensation Act Special Fund (Fund). The Fund is
            administered by the Employment Standards Administration (ESA) which is an
            agency within the United States Department of Labor. Within ESA, the Division
            of Longshore and Harbor Workers’ Compensation has direct responsibility for
            administration of the Fund. The Fund offers compensation, and in certain
            cases, medical care payments to employees disabled from injuries which
            occurred on the navigable waters of the United States, or in adjoining areas
            used for loading, unloading, repairing, or building a vessel. The Fund also
            extends benefits to dependents if any injury resulted in the employee’s death.
            Additionally, the Longshore and Harbor Workers’ Compensation Act [Section
            10(h)] provides annual wage increase compensation (cost of living
            adjustments). Fifty percent of this annual wage increase for pre-1972
            compensation cases is paid by Federal appropriated funds and fifty percent is
            paid by the Fund through the annual assessment. Appropriated funding for
            10(h) is not reflected in the accompanying financial statements. Appropriated
            funding is reflected in the Federal Employees Compensation Act’s Special
            Benefit Fund.

      (b)   Basis of Accounting and Presentation
            These financial statements present the financial position, net cost of
            operations, changes in net position and budgetary resources of the Longshore
            and Harbor Workers’ Compensation Act Special Fund (Fund), in accordance
            with U.S. generally accepted accounting principles and the form and content
            requirements of OMB Circular A-136. These financial statements have been
            prepared from the books and records of the Fund. These financial statements
            are not intended to present, and do not present, the full cost of the Longshore
            and Harbor Workers’ Compensation Act Program (Longshore Program). In
            addition to the Fund costs presented in these statements, the full cost of the
            Longshore Program would include certain direct costs of ESA in the form of

19                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 22-08-004-04-432
                                Longshore and Harbor Workers’ Compensation Act Special Fund
                                        Financial Statements and Independent Auditors’ Report

                        LONGSHORE AND HARBOR WORKERS’
                         COMPENSATION ACT SPECIAL FUND
                             Notes to the Financial Statements
                        Years ended September 30, 2007 and 2006


           salaries and expenses for administration of the Longshore Program and
           allocated costs of ESA and other DOL agencies incurred in support of the
           Longshore Program. The full cost of the Longshore Program is included in the
           Consolidated Financial Statements of the U.S. Department of Labor.
           U.S. generally accepted accounting principles encompass both accrual and
           budgetary transactions. Under accrual accounting, revenues are recognized
           when earned, and expenses are recognized when a liability is incurred.
           Budgetary accounting facilitates compliance with legal constraints on, and
           controls over, the use of federal funds. These financial statements are different
           from the financial reports, also prepared for the Fund pursuant to OMB
           directives, used to monitor the Fund’s use of budgetary resources.
           Effective for FY 2007, OMB Circular A-136 has removed the Statement of
           Financing as a Principal Financial Statement. The purpose of this Statement
           was to explain how budgetary resources obligated during the period relate to
           the net cost of operations for the reporting entity. OMB decided that this
           reconciliation would be better understood as a note rather than a principle
           statement. This reconciliation is disclosed in Note 8, Reconciliation of
           Budgetary Resources Obligated to Net Cost of Operations.
     (c)   Funds with U.S. Treasury
           The Fund does not maintain cash in commercial bank accounts. Cash receipts
           and disbursements are processed by the U.S. Treasury. The Fund balance
           with U.S. Treasury is a trust fund that is available to pay current liabilities and
           finance authorized purchase commitments.
     (d)   Investments
           Investments in U.S. Government securities are reported at cost, net of
           unamortized premiums or discounts, which approximates market value.
           Premiums or discounts are amortized on a straight-line basis, which
           approximates the effective interest method. The Fund’s intent is to hold
           investments to maturity, unless they are needed to finance claims or otherwise
           sustain the operations of the Fund. No provision is made for unrealized gains
           or losses on these securities because, in the majority of cases, they are held to
           maturity.



U.S. Department of Labor—Office of Inspector General                                       20
Report Number: 22-08-004-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                       LONGSHORE AND HARBOR WORKERS’
                        COMPENSATION ACT SPECIAL FUND
                            Notes to the Financial Statements
                       Years ended September 30, 2007 and 2006


     (e)   Accounts Receivable, Net of Allowance
           The amounts due as receivables are stated net of an allowance for
           uncollectible accounts. The allowance is estimated based on past experience
           in the collection of the receivables and an analysis of the outstanding
           balances. Also included as benefit overpayments receivable are Fund benefit
           overpayments made to individuals primarily from amended compensation
           orders and corrections of payment computations.
     (f)   Accrued Benefits Payable
           The Longshore and Harbor Workers’ Compensation Special Fund provides
           compensation and medical benefits for work related injuries to workers in
           certain maritime employment. The Fund recognizes a liability for disability
           benefits payable to the extent of unpaid benefits applicable to the current
           period. It does not include a liability for incurred but not reported claims.
           Ultimate responsibility for payment of such claims rests with the employer
           organizations.
     (g)   Deferred Revenue
           Deferred revenues represent the unearned assessment revenues as of
           September 30, the Fund’s accounting year end. The annual assessments
           cover a calendar year and, accordingly, the portion extending beyond
           September 30 has been deferred.
     (h)   Financing Sources Other Than Exchange Revenue
           Non-exchange revenues arise from the Federal government’s power to
           demand payments from and receive donations from the public. Non-exchange
           revenues are recognized by the Fund for assessments levied against the
           public and interest income from investments.
           The Fund’s primary source of revenue is annual assessments levied on
           insurance carriers and self-insured employers. Assessments are recognized as
           non-exchange revenue when due. Included in assessment revenues in the
           accompany Statement of Changes and Net Position are recoveries of amounts
           based on previously under-reported payments by self-insures or carriers.
           These reassessments primarily result from the application of Agreed Upon
           Procedures (AUP) on reported carrier data. Recoveries amounted to
           $2,133,496 for the fiscal year ended September 30, 2007 and $6,545,834 for

21                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 22-08-004-04-432
                                      Longshore and Harbor Workers’ Compensation Act Special Fund
                                              Financial Statements and Independent Auditors’ Report

                          LONGSHORE AND HARBOR WORKERS’
                           COMPENSATION ACT SPECIAL FUND
                                  Notes to the Financial Statements
                          Years ended September 30, 2007 and 2006


            the fiscal year ended September 30, 2006 as the AUP process was just
            introduced in fiscal year 2007. The Fund also receives interest on Fund
            investments and on Federal funds in the possession of non-Federal entities.
(2)   Funds with U.S. Treasury
      Funds with U.S. Treasury at September 30, 2007 and 2006 consisted of cash
      deposits of $153,564 and $154,036, respectively. These cash deposits at
      September 30, 2007 and 2006 included $369 and $207, respectively, which are
      being held as security by authority of Section 32 of the Longshore and Harbor
      Workers’ Compensation Act. These funds relate to the default of self-insured
      employers, are available for payment of compensation and medical benefits to
      covered employees of the defaulted companies.
      Funds with U.S. Treasury at September 30, 2007 consisted of the following:
                                                    Entity Assets
                              Unobligated    Unobligated     Obligated
                               Balance        Balance       Balance Not    Total        Non-entity
      (In Dolars)              Available     Unavailable Yet Disbursed Entity Assets     Assets           Total

      Special Fund        $           —               —       153,564       153,564            —          153,564



      Funds with U.S. Treasury at September 30, 2006 consisted of the following:
                                                     Entity Assets
                              Unobligated     Unobligated     Obligated
                               Balance         Balance       Balance Not    Total       Non-entity
      (In Dollars)             Available      Unavailable Yet Disbursed Entity Assets    Assets           Total

      Special Fund        $           —               —        154,036      154,036             —         154,036


(3)   Investments
      Investments at September 30, 2007 and 2006 consisted of the following:
                                                                 September 30, 2007
                                              Face               Net          Market
      (In Dollars)                            Value           Discount         Value                   Value
      Intragovernmental securities:
         Marketable                 $       69,979,000                  —      69,979,000            69,979,000




U.S. Department of Labor—Office of Inspector General                                                              22
Report Number: 22-08-004-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                          LONGSHORE AND HARBOR WORKERS’
                           COMPENSATION ACT SPECIAL FUND
                                Notes to the Financial Statements
                          Years ended September 30, 2007 and 2006


                                                            September 30, 2006
                                          Face              Net          Market
      (In Dollars)                        Value          Discount         Value           Value
      Intragovernmental securities:
         Marketable                 $   73,146,000             —        73,146,000      73,146,000


      Investments of $7,996,900 and $7,272,300 at September 30, 2007 and 2006,
      respectively, are being held as security by authority of Section 32 of the Longshore
      and Harbor Workers’ Compensation Act. These investments are available for
      payment of compensation and medical benefits to covered employees of the
      defaulted companies. Investments at September 30, 2007 and 2006 consist of
      overnight securities. Investments at September 30, 2007 bear an interest rate of
      3.99% compared to an interest rate of 5.03% for September 30, 2006. Interest rates
      on securities bought and sold during fiscal year 2007 ranged from 2.16% to 5.35%
      compared to 3.46% to 5.30% for fiscal year 2006.
(4)   Accounts Receivable, Net
      Accounts receivable at September 30, 2007 and 2006 consisted of the following:
      (In Dollars)                                                      2007              2006
      Entity assets:
        Intragovernmental:
            Interest Receivable                                  $       15,512            10,220
            Total Intragovernmental accounts receivable          $       15,512            10,220

      Benefit overpayments                                       $    2,747,219         2,213,883
      Assessments receivable                                          2,323,263         1,027,573
      Less: allowance for doubtful accounts                          (1,267,621)         (810,354)
            Total accounts receivable from the public, net       $    3,802,861         2,431,102


      Assessments receivable represent the unpaid annual assessments from the current
      and prior years. Accounts receivable from overpayments to claimants arise primarily
      from amended compensation orders and corrections of payment computations.
      These receivables are being primarily recovered by partial and total withholding of
      benefit payments.



23                                                U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 22-08-004-04-432
                                       Longshore and Harbor Workers’ Compensation Act Special Fund
                                               Financial Statements and Independent Auditors’ Report

                              LONGSHORE AND HARBOR WORKERS’
                               COMPENSATION ACT SPECIAL FUND
                                   Notes to the Financial Statements
                             Years ended September 30, 2007 and 2006


      Changes in the allowance for doubtful accounts during fiscal year 2007 and fiscal
      year 2006 consisted of the following:
                                                                 2007
                               Allowance        Write        Revenue                         Allowance
(In Dollars)                 October 1, 2006    Offs        Adjustment      Bad Debt     September 30, 2007

Entity assets:
  Benefit overpayments $          (684,031)             —            —         (2,774)            (686,805)
  Assessment receivable           (126,323)             —            —       (454,493)            (580,816)

                         $        (810,354)             —            —       (457,267)          (1,267,621)



                                                                 2006
                               Allowance        Write        Revenue                         Allowance
(In Dollars)                 October 1, 2005    Offs        Adjustment      Bad Debt     September 30, 2006

Entity assets:
  Benefit overpayments $          (366,628)             —            —       (317,403)              (684,031)
  Assessment receivable            (72,263)             —            —        (54,060)              (126,323)

                         $        (438,891)             —            —       (371,463)              (810,354)



(5)   Other Liabilities
      Other liabilities at September 30, 2007 and 2006 consisted of the following current
      liabilities:
       (In Dollars)                                                       2007               2006
       Other liabilities:
         Assessment overpayments by carriers                     $        117,855            869,570
         Defaulted employer liability:
           Held in investments                                           7,996,900         7,272,300
           Held in cash                                                        368               207
                                                                         7,997,268         7,272,507
                      Total other liabilities                    $       8,115,123         8,142,077


      Assessment overpayments are to be refunded upon request or applied to reduce
      future assessments.


U.S. Department of Labor—Office of Inspector General                                                   24
Report Number: 22-08-004-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                            LONGSHORE AND HARBOR WORKERS’
                             COMPENSATION ACT SPECIAL FUND
                                    Notes to the Financial Statements
                            Years ended September 30, 2007 and 2006


      Defaulted employer liability relates to funds and investments held by the Longshore
      Special Fund which are being held as security by authority of Section 32 of the Act.
      These funds and investments are available for compensation and medical benefits
      to covered employees of the defaulted companies.
(6)   Due to OWCP
      The Fund reimburses the Office of Workers’ Compensation Programs (OWCP) (a
      related entity within the Employment Standards Administration) for rehabilitation
      services provided to eligible claimants and certain direct expenses associated with
      administrative support of the Fund. Approved transfers out to the OWCP were
      $2,041,885 in 2007 and $2,027,520 in 2006. Transfers are made from the Special
      Fund in accordance with sections 39(c), 44(d), and 44(j) of the Longshore and
      Harbor Workers’ Compensation Act.
(7)   Status of Budgetary Resources
      (a)   Apportionment Categories of Obligations Incurred
             (In Dollars)                                               2007             2006
             Direct Obligations:
                Exempt from apportionment                       $ 131,918,901       136,437,566


      (b)   Explanation of Differences Between the Statement of Budgetary
            Resources and the Budget of the United States Government
            A reconciliation of budgetary resources, obligations incurred and outlays, as
            presented in the Statement of Budgetary Resources to amounts included in the
            Budget of the United States Government for the year ended September 30,
            2006 is shown below:
                                                                             2006
                                                               Budgetary   Obligations
            (Dollars in Millions)                              Resources    Incurred       Outlays
            Statement of Budgetary Resources               $       204            137           135

              District of Columbia Workers’ Compensation             16            10            10

            Budget of the United States Government         $       220            147           145


25                                               U.S. Department of Labor—Office of Inspector General
                                                                     Report Number: 22-08-004-04-432
                                Longshore and Harbor Workers’ Compensation Act Special Fund
                                        Financial Statements and Independent Auditors’ Report

                        LONGSHORE AND HARBOR WORKERS’
                         COMPENSATION ACT SPECIAL FUND
                             Notes to the Financial Statements
                        Years ended September 30, 2007 and 2006


(8)   Reconciliation of Budgetary Resources Obligated to Net Cost of Operations


                                                                       2007               2006
Budgetary resources obligated:
  Obligations incurred                                         $ 131,918,901         136,437,566
Other resources:
  Transfers out                                                     (2,041,885)        (2,027,520)
             Total resources used to finance activities           129,877,016        134,410,046
Resources used to finance items not part of the
      net cost of operations
  Resources that finance the acquisition of assets                     (38,741)          (232,776)
             Total resources used to finance items not part
               of the net cost of operations                           (38,741)          (232,776)
             Total resources used to finance the net cost
               of operations                                      129,838,275        134,177,270
Components not requiring or generating resources:
  Revaluation of assets and liabilities                               (263,557)           263,557
  Benefit overpayments                                                (533,337)          (747,372)
             Total components of net cost of operations
               that will not require or generate resources
                   in the current period                            (796,894)           (483,815)
             Net cost of operations                            $ 129,041,381         133,693,455




 (9) Concentration of Risk
      The Fund makes assessments to authorized insurers and self-insurers one year at
      a time for current expenses; there is no reserve for future Fund obligations. In
      keeping with the requirement of section 44 of the Longshore Act, obligations are
      paid as they are incurred. Assessments are based on compensation and medical
      benefits paid in the prior calendar year.



U.S. Department of Labor—Office of Inspector General                                       26
Report Number: 22-08-004-04-432
